                                              TABLE OF CONTENTS



                                                                                                                                 PAGE

ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

OBJECTIVES AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

AUDIT RESULTS:

          1.         Opening Six Planned Centers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

          2.         Including All WIA Required One-Stop Partners . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

          3.         Establishing Agreements with Agencies Providing
                     WIA Required Partner Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

          4.         Developing a Financial System Able to Meet One-Stop
                     Needs Under WIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          5.         Developing a Data Collection System Able to Meet
                     One-Stop Needs Under WIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

          6.         Providing Access to Services at the One-Stop Centers . . . . . . . . . . . . . . . . . . . . . . . 8


RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


APPENDIX:

          Rhode Island Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                         ACRONYMS



DLT    Rhode Island Department of Labor and Training


FTE    Full-Time Equivalent


GRI    Greater Rhode Island Private Industry Council


INA    Indian and Native American Program


JTPA   Job Training Partnership Act


MOU    Memorandum of Understanding


MSFW   Migrant and Seasonal Farmworkers Program


NRI    Northern Rhode Island Private Industry Council


ODDS   On-line Data and Display System


WIA    Workforce Investment Act




                               -i-
                                 EXECUTIVE SUMMARY


This report presents the results of the audit of Rhode Island’s One-Stop career center system. In
1997, Rhode Island was awarded a 3-year planning and implementation grant to establish a One-Stop
system. The grant, as modified, provides $2,981,250 in funding.

The audit objective was to assess the status of Rhode Island’s One-Stop career center system relative
to where it needs to be to meet the Workforce Investment Act (WIA) requirements. In performing the
audit, we recognized that the State has until July 1, 2000, to become fully compliant with WIA
requirements. This report provides the reader with a snapshot as of April 23, 1999, of where Rhode
Island stands in implementing WIA requirements and actions to be taken by July 1, 2000.

As background, WIA was passed in August 1998 to reform Federal job training programs and create a
new, comprehensive workforce investment system. The cornerstone of the new workforce investment
system is One-Stop service delivery which unifies numerous training, education and employment
programs into a single, customer-friendly system in each community. WIA requires that states
complete full implementation by July 1, 2000. Interim final regulations were issued April 15, 1999, and
provided further direction on WIA requirements. The regulations became effective May 17, 1999.
after fieldwork was performed.

Overall, we concluded Rhode Island should meet the WIA requirement of having a One-Stop career
center located in each local area and providing accessible services at One-Stop centers. However,
Rhode Island needs to address the following issues:

       !       including all WIA required programs in the One-Stop system;

       !       developing and executing comprehensive Memoranda of Understanding (MOUs)
               between the local boards and program partners;

       !       allocating a fair share of operating costs to all program partners; and

       !       collecting all WIA required data elements on all One-Stop customers.

The Director of the Rhode Island Department of Labor and Training (DLT) responded to the draft
report on August 23, 1999. The Director generally concurred with our findings and recognized that
changes need to be made in its existing systems to comply with WIA by
July 1, 2000. The response has been incorporated into the report with our comments. It is also
included in its entirety as an Appendix.


                                                  -1-
-2-
                                OBJECTIVES AND SCOPE


The overall audit objective was to assess the status of Rhode Island’s One-Stop career center system
relative to where it needs to be to meet WIA requirements. Subobjectives were to assess the status of
Rhode Island’s One-Stop career center system in:

        1.   Opening six planned centers.
        2.   Including all WIA required One-Stop partners.
        3.   Establishing agreements with agencies providing WIA required partner services.
        4.   Developing a financial system able to meet One-Stop needs under WIA.
        5.   Developing a data collection system able to meet One-Stop needs under WIA.
        6.   Providing access to services at the One-Stop centers.

In performing this audit, we conducted interviews with ETA, Rhode Island One-Stop and center
officials. We reviewed and analyzed One-Stop partnership agreements, services for job seekers and
employers, One-Stop center plans and other documents from various program sources. We made on-
site visits to the Pawtucket and Warren One-Stop centers. We did not assess One-Stop career center
performance, customer satisfaction, or customer choices. We did not review management controls
related to the One-Stop career center implementation grant.

The audit was performed in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. We conducted fieldwork from April 5, 1999 to April 23,
1999. We held an exit conference with DLT officials on July 22, 1999.




                                        AUDIT RESULTS


1. Opening Six Planned Centers

WIA, Title I, Subtitle B, Chapter 5, Section 134(c)(2)(A) requires, at a minimum, that each of the
required programs, services, and activities be accessible at not less than one physical center in each
local area of the State. Rhode Island has three local areas, Northern Rhode Island,
Providence/Cranston, and Greater Rhode Island, and, therefore, needs three physical One-Stop
centers to meet WIA requirements. Rhode Island plans to open six centers across the State, as
follows:


                                                   -3-
               One-Stop Center             Local Area               Opening Date
               Pawtucket             Northern Rhode Island      June 1998
               Warren                Greater Rhode Island       June 1998
               Providence            Providence/Cranston        Planned for June 1999
               Wakefield             Greater Rhode Island       Planned for June 1999
               Woonsocket            Northern Rhode Island      Planned for June 2000
               Warwick               Greater Rhode Island       Planned for June 2000


Rhode Island should be able to meet WIA requirements for having at least one physical One-Stop
career center in each of its local areas. Centers in two local areas were opened in June 1998 and a
center for the third local area was planned to open in June 1999. Also, Rhode Island has sufficient
funds under the implementation grant to meet its goal of six physical centers.


2. Including All WIA Required One-Stop Partners

WIA, Title I, Subtitle B, Chapter 3, Section 121(b)(1)(B) requires as partners those employment,
training and education entities that carry out specific programs and activities. 20 CFR 662.220(b)(3)
further states:

        “Under WIA, the national programs . . . are required One-Stop partners. Local
        Boards must include them in the One-Stop delivery system where they are present
        in their local area. In local areas where the national programs are not present,
        States and Local Boards should take steps to ensure that customer groups served
        by these programs have access to services through the One-Stop delivery system.”

Rhode Island’s One-Stop career center system does not include all WIA required partners. While
Rhode Island has encouraged entities which administer the major Federal grant service programs to
have a physical presence at One-Stop career centers, some required program partners will not have a
physical presence in at least one center per local area.

The Indian and Native American (INA) program which operates with a small budget, and the Migrant
and Seasonal Farmworkers (MSFW) program which is not present in the State, are not included in
Rhode Island’s One-Stop delivery system. Rhode Island has not taken steps to ensure that those
specific customer groups are served through the One-Stop delivery system and, if appropriate, referred
to the nearest operator of the specified program.




                                                 -4-
In its response, Rhode Island stated:

             “1. This is one instance where our one-stop system was built on one set of
             parameters, and WIA was designed with another.

             2. There are no migrant/seasonal farm-workers in Rhode Island, so the question
             arises as to why a state must include a required program which essentially has no
             customers to serve. This may be a waiver issue for Rhode Island, and other states in
             a similar dilemma.

             3. The Indian and Native American population in Rhode Island is very small and
             concentrated in the southern part of the state. One program operates in the same
             building as our one-stop office in Wakefield, and it may be quite easy to bring them
             into the one-stop setting. However, we would need to seek clarification from the
             National Office as to whether this partnership is a required presence in workforce
             areas of the state where no Indian and Native American programs exist.”

We believe Rhode Island should seek clarification and guidance from ETA since neither WIA nor the
regulations address what a state should do when a required program, such as MSFW, does not exist in
a state.

With regard to the INA program, 20 CFR 668.360(a) states: “In those local areas where there is a
INA grantee field office, the INA grantee is a required partner in the local One-Stop delivery
system. . . .” Thus, the INA program would be a required One-Stop partner for the southern area of
the State. The State and local boards still need to take steps to ensure that all customers have access
to services through the One-Stop system.


3. Establishing Agreements with Agencies Providing WIA Required Partner Services

WIA, Title I, Subtitle B, Chapter 3, Section 121(c)(2)(A) states that each MOU shall contain
provisions describing:

      “(i) the services to be provided through the one-stop delivery system;

        (ii) how the costs of such services and the operating costs of the system will be funded;

        (iii) methods for referral of individuals between the one-stop operator and the one-stop
        partners, for the appropriate services and activities; and


                                                 -5-
       (iv) the duration of the memorandum and the procedures for amending the
       memorandum during the term of the memorandum. . . .”


Rhode Island’s partnership agreements do not fulfill the requirements of an MOU under WIA.

       !    Agreements do not indicate which services will be provided at the centers or methods of
            referring individuals.

       !    As of the end of fieldwork, most agreements were still in draft form even though the
            Pawtucket and Warren centers had been operational for 10 months. Rhode Island’s
            Department of Human Services was the only program partner which had signed and
            executed agreements for each of the two operational centers. As a result of not having
            executed agreements, program partners had not been billed for their fair share of center
            operating costs. Subsequent to fieldwork, DLT indicated that agreements were signed
            and partners were billed for their respective share of center operating costs through June
            30, 1999.

       !    Rhode Island has been negotiating agreements with only those program partners which are
            physically located at One-Stop centers.

       !    Not all partners in the One-Stop centers were required by Rhode Island to enter into a
            signed agreement. The Greater Rhode Island Private Industry Council (GRI) did not
            enter into an agreement with DLT because DLT functions as its administrative entity. GRI
            operates the local Job Training Partnership Act (JTPA) program for most of Rhode Island.
            Yet, GRI was not asked to sign an agreement stating what services it was going to provide
            or how it would refer JTPA customers to the One-Stop and other partner programs.

            At the time of our fieldwork, GRI also had a presence in the Pawtucket center which is in
            the Northern Rhode Island local service area. Both GRI and the Northern Rhode Island
            Private Industry Council (NRI) served JTPA clients at the Pawtucket center for 9 months
            without an agreement as to how they would coordinate services. Subsequent to fieldwork,
            DLT indicated that GRI would be assuming full responsibility for the JTPA program in the
            Northern Rhode Island area.

Rhode Island stated:

            “1. All partner agreements for FY 1999 have been signed after your field visit, and
            each partner has been billed for their respective share of each center’s operating
            costs through the period ending June 30, 1999.


                                                 -6-
             2. The partner agreements included all benefiting programs during FY 1999. While
             the number of participating partners will be expanded upon the implementation of
             WIA and some programs may not be physically located at some centers beginning in
             FY 2000, the partner agreements for FY 1999 did include all benefiting programs
             during that fiscal period. . . .”

While Rhode Island has taken constructive steps, we believe MOUs should be developed for all
partners, including GRI. The current agreements cover financing of center operations. Rhode Island
should address provisions for services at the center and methods of referring customers, in addition to
financing.

4. Developing a Financial System Able to Meet One-Stop Needs Under WIA

WIA, Subtitle E, Section 184(a)(1) requires each State establish fiscal controls and fund accounting
procedures. 20 CFR 662.270 provides further direction, stating:

        “. . . Each partner must contribute a fair share of the operating costs of the One-Stop
        delivery system proportionate to the use of the system by individuals attributable to the
        partner’s program. . . . Some of these (allocation) methodologies include allocations
        based on direct charges, cost pooling, indirect cost rates and activity-based cost
        allocation plans. . . .”

DLT, the administrator for the State’s One-Stop system, has an accounting system which is adequate
for capturing center costs in aggregate. However, Rhode Island’s One-Stop career center system has
not developed a financial management system which fully meets WIA needs.

DLT’s allocation method for charging center operating costs to co-located partners is based on full-
time equivalent (FTE) staff at the center. Partners having only a part-time presence at the center are
allocated a proportionate percentage of an FTE. This allocation method does not ensure each program
pays its fair share since center operating costs are only allocated to co-located partners. Customers
may access the One-Stop delivery system and use programs not co-located at the centers, such as the
MSFW and INA programs. Costs of services provided to these customers at a center would not be
properly allocated to the appropriate program.

Rhode Island responded:

             “1. Beginning in FY 2000, some programs will not be physically located at some
             centers. The cost allocation methodology used in FY 1999 and principally based on
             the FTE levels of the staff physically located at the respective centers will be
             adjusted to assure that each benefiting program contribute its fair share of each
             center’s operating costs.”

                                                  -7-
             2. The distribution of the cost of each center will be based upon a combination of
             direct and cost pooling charges. While the regulations at 20 CFR 662.270 include
             activity-based costing as one of a number of methods which may be used, the cite
             does not require the use of any one methodology.”




5. Developing a Data Collection System Able to Meet One-Stop Needs Under WIA

WIA, Title I, Subtitle B, Chapter 6, Section 136(d)(2) requires that a One-Stop data collection system
be able to collect and report certain data elements for all customers who receive more than self-service
and informational services.

Rhode Island’s One-Stop career center system uses multiple data collection systems to collect and
report customer activities. Each program partner uses its own data collection system, such as the On-
line Data and Display System (ODDS) used for the Wagner-Peyser program. Also, to collect overall
statistics for One-Stop career centers, the State developed another data collection system, the
netWORKri Customer Tracking System.

Based on our limited review, the ODDS data collection system was effectively merged into the One-
Stop career center environment. All customer activity was recorded and required data elements were
collected. However, the netWORKri system was not adequate to meet WIA needs for One-Stop
reporting.

        !    Only one out of three sampled center customers had records in the netWORKri Customer
             Tracking System. This occurred because program and netWORKri data collection
             systems were not linked and customer activities must be entered at least twice in order to
             track customer activity. However, staff does not always enter data into the netWORKri
             system and the State does not have a way to verify all customer data have been entered.

        !       NetWORKri system will need to include by July 1, 2000, certain data elements
                required under WIA. Currently, netWORKri does not collect data on:

                        Displaced Homemakers

                        Skill Attainment Outcomes


                                                  -8-
                       Entry into Unsubsidized Employment

                       Retention in Unsubsidized Employment after Six Months

                       Retention in Unsubsidized Employment after Twelve Months

                       Return on Investment (cost of services and outcomes)

                       Training Effectiveness (outcomes: trained versus non-trained)




Rhode Island responded, stating that:

            “1. The current tracking system in use in the one-stop offices was never
            intended to be a full-blown case-management or statistical reporting system.
            It was designed with a single purpose in mind - to collect basic data on
            individuals who came into the one-stop setting and track their participation.

            2. In the design of our one-stop system, we recognized the importance of having one
            data system to collect and report customer activities across multiple programs. In
            implementing the system, however, we quickly concluded that replacing all of the
            partners’ disparate data systems with one integrated one-stop system was not an
            attainable goal unless we could obtain additional financial resources for this
            effort. . . .”

            “. . . 2. When the audit was performed in April, the netWORKri system was very
            new to all staff, and many were still unfamiliar with it. Since that time additional
            staff training has taken place and staff are much more comfortable with the system.

            3. Changes have been made to the tracking system to tighten up data validation
            and entry, and a number of additional fields have been added based on staff input.

            4. This system will remain in place until we are able to determine an appropriate
             replacement system that is fully WIA compliant. . . .”

6. Providing Access to Services at the One-Stop Centers

The introduction to the Interim Final Rule (Federal Register, Volume 64, Number 72, dated
April 15, 1999, page 18668-9), states that One-Stop delivery systems should be user friendly and local

                                                -9-
boards should coordinate with the broader community, including transportation agencies, to ensure the
centers are accessible to customers.

We toured the two operational One-Stop career centers. We found both centers to be user friendly
and accessible. Both centers delivered services through self-service and staff assisted service.
Facilities were clean and well equipped with standard and specialized equipment for visually, hearing
and mobility impaired persons. General meeting and training rooms were available. Staff work areas
were well laid out and aisles were wide enough to accommodate wheelchairs.

Resource areas were designed to encourage public usage with staff available to assist customers and
demonstrate equipment usage. Resource computers were user friendly, utilizing mouse driven programs
(point and click) and “home screen” links to occupation related Internet sites. Computers were
configured to minimize the risk of damage by general public usage.

Free parking, including designated handicapped spaces, was available at both centers. The Pawtucket
center was accessible by public transportation. While the Warren center is a mile from the nearest bus
route, the center manager is working with neighboring businesses to obtain a bus route for the area.

RECOMMENDATION:

We recommend that the Assistant Secretary for Employment and Training ensure that Rhode Island
implements WIA One Stop requirements. By July 1, 2000, Rhode Island needs to:

       1.      Ensure at least one center in each local area meets the requirements of a comprehensive
               One-Stop career center under WIA by:

               --      including all WIA required partners in the center, and

               --      providing access to services to customer groups served by national programs
                       not present in the local areas.

       2.      Seek clarification and guidance from ETA when a WIA required program is not
               operated in the state.

       3.      Develop and execute comprehensive MOU agreements between the local boards and
               each program partner by including provisions covering:

               --      services to be provided,

               --      the funding of services and operating costs, and


                                                  -10-
     --      methods for referring individuals between the One-Stop operators and
             partners.

4.   Allocate a fair share of operating costs to all program partners by ensuring the
     allocation method distributes the costs fairly among all program partners, both those co-
     located at the One-Stop centers and those not.

5.   Collect all WIA required data elements on all One-Stop customers by:

     --      adding missing required data elements to the netWORKri Customer Tracking
             System or establishing linkages with other systems which already collect the
             data, and

     --      ensuring that the netWORKri Customer Tracking System captures complete
             and accurate data for all customers who receive more than self-service or
             informational services.




                                      -11-
